CERTIFICATE OF COMPLIANCE
Case No. 20-360
Caption: David Shinn, et al. v. Shawn Jensen, et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 6,307 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 8, 2020.

Sworn to before me on
December 8, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01086101366
Qualified in Kings County
Com

